                                        NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

 Case Number: A12030018                                                     Page 1 of 1



         We received notification from a University that one of its graduate students
         fabricated data and had been expelled from the department. We concurred with the
         University’s conclusion and recommended NSF make a finding of research
         misconduct, debar the subject for 1 year, and take other actions; NSF concurred.
         This memorandum, NSF’s adjudication, and OIG’s report of investigation comprise
         the closeout. This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                                                               -2013
    OFFICE OF THE
   DEPUTY DIRECTOR



CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Proposed Debarment and Notice of Research Misconduct Determination


Dear M r . -

As a student at                                ("Un~versity"), you fabricated data and submitted it
to a Principal Investigator funded by the National Science Foundation (''NSF"). This research
misconduct is documented in the attached investigative report prepared by NSF's Office of
Inspector General ("OIG").

In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
from directly or indirectly obtaining the benefits of Federal grants for one year. During your
period of debarment, you will be precluded from receiving Federal financial and non-fmancial
assistance and benefits under non-procurement Federal programs and activities. In addition, you
will be prohibited from receiving any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you will be
barred from having supervisory responsibility, primary management, substantive control over, or
critical influence on, a grant, contract, or cooperative agreement with any agency of the
Executive Branch of the Federal Government.

In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
advisor, or consultant to NSF u n t i l - 2014. Furthermore, for one year after the
expiration of your debarment period, I am requiring that you submit certifications, and that a
responsible official of your employer submit assurances, that any proposals or reports you submit
to NSF do not contain plagiarized, falsified, or fabricated material. Moreover, by December 1,
2014, you must certify the completion a comprehensive responsible conduct of research training
course, and provide documentation of the program's content.
                                                                                            Page2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... "      45 CFR § 689.l(a).
NSF defines "fabrication" as ''making up data or results and recording or reporting them." 45
CFR § 689.l(a)(l).

A finding of research misconduct requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and                                                                               '
                                                                                                        ;
                                                                                                        I

       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;             i
                                                                                                      . !
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

Your admission of data fabrication permits me to conclude that your actions meet the applicable
definition of fabrication, as set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
research misconduct based on a preponderance of the evidence. 45 CFR § 689 .2(c). After
reviewing the Investigative Report and your admission of data fabrication, NSF has determined
that, based on a preponderance of the evidence, your fabrication of data was committed
intentionally and constituted a significant departure from accepted practices of the relevant
research community. I am, therefore, issuing a finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a fmding of misconduct. 45 CFR § 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR § 689.3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; my determination that it was committed intentionally; the fact
that the misconduct had no impact on the research record; and the fact that the misconduct was
an isolated incident. I have also considered other relevant circumstances. See 45 CFR §
                                                                                           Page 3
689.3(b).


Based on the foregoing, I am imposing the following actions on you:

   •   For one year from the end of your debarment period, you are required to submit
       certifications that any proposals or reports you submit to NSF do not contain plagiarized,
       falsified, or fabricated materiaL

   •   For one year from the end of your debarment period, you are required to submit
       assurances by a responsible official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated materiaL

   •   From the date of this letter through December 1, 2014, you are prohibited from serving as
       an NSF reviewer, advisor, or consultant.

   •   You are required to complete a comprehensive responsible conduct of research training
       course by December 1, 2014, and provide documentation of the program's content. The
       instruction should be in an interactive format (e.g., an instructor-led course, workshop,
       etc.) and should include a discussion of data fabrication.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's Office oflnspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.


Debarment

Regulatory Basis for Debarment
                                                                                                    ;;
Pursuant to 2 CFR § 180.800, debarment may be imposed for:

       (b)    Violation of the terms of a public agreement or transaction so serous as to affect
              the integrity of an agency program, such as -

               (1)    A willful failure to perform in accordance with the terms of one or more
                      public agreements or transactions;


               (3)    A willful violation of a statutory or regulatory provision or requirement
                      applicable to a public agreement or transaction; or

       (d)     Any other cause of so serious or compelling a nature that it affects your present
               responsibility.
                                                                                                           Page4
In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR § 180.850. In this case, you admitted that you
intentionally fabricated data, and provided this data to an NSF-funded PI. Thus, your action
supports a cause for debarment under 2 CFR §§ 180.800(b) and (d).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR § 180.865. Having considered the seriousness ofyour
actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR § 180.860,
                               .                    - -                     -
'!"!:~D. ":!!"!'".a.~~ ...... ~~£"'!"'!"'!~ '!:Y •.-..."!'!"!"' A.oh.~~=~+ +:..-..~ ~~= "'!:'!"£:!:.~~
VY'-'   u.J.."-'·t'J.V.l-'U~.llJ.fS.    )'-'UJ. U..VULU.J..lH..,...lJ.L .LUJ. V.lJ.\..1     J\..fU..l ..




Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment

Appeal Procedures for Finding ofResearch Misconduct

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal should
be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become fmal. For your information, we are
attaching a copy of the applicable regulations.


Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR § 180.820. Comments submitted within the 30-day period will receive
full consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.
                                                                                        Page 5
Should you have any questions about the foregoing, please c o n t a c t - ' Assistant
General Counsel, at (703) 292~.                           .



                                                 Sincerely,




                                                 Fae Korsmo
                                                 Senior Advisor



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
                                  NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230



                                           -2014

    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL -• RETURN RECEIPT REQUESTED




       Re:     Notice of Debarment


Dear   Mr.-
                   2013, the National Science Foundation (NSF) issued you a Notice of Proposed
Debarment and Notice of Research Misconduct Determination ("Notice") in which NSF
proposed to debar you from directly or indirectly obtaining the benefits of Federal grants for a
period of one year. As reflected in the Notice, NSF proposed to debar you because you
fabricated data and submitted that data to a Principal Investigator funded by NSF. In that Notice,
NSF provided you with thirty days to respond to the proposed debarment.

The period for submitting a response to NSF has elapsed, and NSF has not received a response
from you. Accordingly, you are debarred u n t i l - 2015.

Debarment precludes you from receiving Federal financial and non-fmancial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a determination to grant an exception in accordance with 2 CFR
180.135. Non-procurement transactions include grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR subpart 9.4 for the period of-this debarment.
2 CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch of the Federal Government.
                                                                                             Page2
Please note that, in the Notice, NSF also took the following actions against you, which continue
to remain in effect:

    •   For one year from the end of your debarment period, you are required to submit
        certifications that any proposals or reports you submit to NSF do not contain plagiarized,
        falsified; or fabricated material;
    •   For one year from the end of your debarment period, you are required to submit
        assurances by a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified, or fabricated material;
    •   You are prohibited from serving as an NSF reviewer, advisor, or consultant through
        December 1, 20 14; and
    •   You are required to complete a comprehensive responsible conduct of research training
        course by December 1, 2014 and provide documentation of the program's content. The
        instruction should be in an interactive format (e.g., instructor led course, workshop, etc.)
        and should include a discussion of data fabrication.              -

All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230.

Should you have any questions about the foregoing, please contact
-       at (703) 292-8060.


                                                      Sincerely,




                                                      Cora B. Marrett
                                                      Deputy Director
Sensitive                                                                              Sensitive




        National Science Foundation
            Office of Inspector General




                  Report of Investigation
                 Case Number A12030018

                                  July 3, 2013

                          This Report of Investigation is provided to you
                                    FOR OFFICIAL USE ONLY.
  It contains protected personal information, the unauthorized disclosure of which may result in
  personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
  disclosed within NSF only to individuals who must have knowledge of its contents to facilitate
  NSF's assessment and resolution of this matter. This report may be disclosed outside NSF only
  under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 & 552a. Please take
  appropriate precautions handling this report of investigation.

NSF OIG Form 22b (1/13)
                                        Sensitive


                                Executive Summary
Allegation:         Fabrication
University Investigation:       The University concluded the Subject, a student,
committed research misconduct and dismissed him from the program.            We
concurred with the University's assessment of the facts.
       The Act: The Subject fabricated data in an internal report.
       Intent: We concluded the Subject acted purposefully.
       Significant Departure: The Subject's fabrication represents a significant
       departure from accepted practices.
       Sta11dard of Proof: A prepo11dera11Ce of tl1e evide11ce sta11dard supports our
       conclusion that the Subject committed research misconduct.
       Pattern: There is no evidence of a pattern of fabrication.
OIG Recommendations:
   •   Send a letter of reprimand to the Subject informing him that NSF has made a
       finding of research misconduct.
   •   Require the Subject to complete a responsible conduct of research training
       program and provide documentation of content within 1 year.                The
       instruction should be in an interactive format (e.g., an instructor-led course)
       and specifically include fabrication.
   •   Debar the Subject for 1 year.
For a period of 1 year immediately following the debarment period:
   •   Require for each document (proposal, report, etc.) to which the Subject
       contributes for submission to NSF (directly or through his advisor or
       institution),
          o   The Subject submit a contemporaneous certification that the document
              does not contain plagiarism, falsification, or fabrication.
          o   The Subject submit a contemporaneous assurance from his advisor or
              responsible official that the document does not contain plagiarism,
              falsification, or fabrication.
   •   Prohibit the Subject from serving as a reviewer, advisor, or consultant for
       NSF.




                                           2
                                            Sensitive


                        University's Investigation and Action
       NSF was notified that one of its PI's 1 students 2 (the Subject) had fabricated
data. We contacted the PI for additional information. The PI said he had been
frustrated with the Subject's work ethic, and the Subject had not been able to work
toward their mutually agreed-upon goals. After the PI expressed his frustration to
the Subject, the Subject presented the PI with some graphical data, purportedly the
results of an experiment he conducted. The PI was surprised the Subject had been
able to generate the data in such a short amount of time, checked the instrument on
which the Subject supposedly conducted the experiment to generate the data, and
learned it had not been used recently. The PI confronted the Subject, who admitted
he fabricated the data. The PI dismissed the Subject from his lab and reported the
incident to his Department Head. 3 The PI stated the fabricated data were not
submitted to NSF; in fact; they were not disseminated beyond those involved in the
investigation.
       The Department Head interviewed the Subject, who again admitted that he
fabricated the data he provided to the PI. He provided the Department Head with
the electronic file with the fabricated data. The Department Head, in consultation
with the Graduate Committee recommended expelling the Subject from the
department, 4 This recommendation was sent to the Dean. 5 The Dean dismissed
the Subject from the department graduate program. 6 The Dean also placed a hold
on the Subject's account, preventing him from further course registration.
Subsequent to the Dean's action, the Subject transferred to another university, but
apparently left there as well. 7


                                     OIG's Assessment
      We agree with the University about its evaluation of the evidence and its
conclusions. The PI confirmed the equipment had not been used to generate data.
When confronted by the PI about this fact, the Subject admitted fabricating the
data. The Subject repeated his admission in front of the Department Head. s We


                                                                                           (the


                             was a Masters student working in the PI's laboratory.
                   is the Headofthe D e p a r t m e n t - .
    4 The Department Head's response to our questions is Tab 1. Tab 2 is the Subject's fabricated

data; the    ·  fabricated data for three samples at four time intervals.
    5                is the (Interim) Dean of Graduate Studies & Research at the University.
    6 Tab 1.

                                here, the Subject is currently enrolled. The U~ormed us
                               University, and then apparently transferred t o - -
                               ve been unable to confirm his enrollment.




                                                3
                                          Sensitive


conclude these facts establish that, by a preponderance of the evidence, the Subject
fabricated the data he presented to the PI.
       We conclude the Subject acted intentionally to fabricate the data in response
to the PI's frustration with his efforts. The Subject had been made aware of the
department's expected ethical conduct during his Department New Student
Orientation. 9
       NSF's Research Misconduct Regulation states that a finding of misconduct
requires: (1) there be a significant departure from accepted practices of the relevant
research community; (2) the research misconduct be committed intentionally, or
knowingly, or recklessly; and (3) the allegation be proven by a preponderance of the
evidence_Io
                                          The Act
       The Subject fabricated data representing three samples and also a graphical
representation of the data. Given the PI's confirmation that the equipment was not
used, together with the Subject's admission, we concluded data for all three samples
were fabricated.
                                          Intent
      The PI informed the Subject he was not performing his        research tasks as
expected. Subsequently, the Subject presented the PI with          data, intended to
persuade the PI that he was working on the research project.       Thus, the Subject
acted in response to the PI's criticism, which we concluded        represents acting
purposefully (intentionally).
                                   Significant Departure
       Using the preponderance of evidence standard, we conclude the Subject
intentionally fabricated data three samples. Fabricating data strikes at the core of
scientific research. The University concluded the act was so serious as to warrant
expulsion. We concluded the Subject's fabrication is a significant departure from
accepted standards.


                             OIG's Recommended Disposition
      In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; degree of intent; whether it was an isolated event or part of a
pattern; its impact on the research record; and other relevant circumstances. 11




   9 Tab 1.
   10 45 C.F.R. §689.2(c).
   11 45 C.F.R. §689.3(b).




                                             4
                                               Sensitive


                                             Seriousness
      As we noted above, we concluded the preponderance of evidence standard
supports the conclusion that the Subject acted purposefully when he fabricated data
and presented it to the PI. The seriousness is mitigated by the Subject's willingness
to admit his misconduct to both the PI and the Department Head.
                                               Pattern
      Thanks to the PI's skepticism and rapid subsequent action to limit the
exposure of the fabricated data (it was not disseminated), the Subject did not have
an opportunity to fabricate additional data. Thus, there is no pattern of fabrication.
                                 Impact on the Research Record
       The effect on the research record as a result of the Subject's actions was
minimal. As noted above, the PI's rapid response when the Subject provided his
fabricated data means "[t]hese fabricated data were never disseminated in any
public venue or project report."l2


                                    The Subject's Response
         The Subject did not respond to our draft report.


                                       Recommendations
       Because the Subject has apparently transferred to several schools, it is
possible for him to associate himself with another NSF project. Accordingly, based
on the evidence, we recommend NSF take the following actions as a final disposition
in this case:
   •     Send a letter of reprimand to the Subject informing him that NSF has made a
         finding of research misconduct.
   •     Require that the Subject complete a responsible conduct of research training
         program and provide documentation of content within 1 year.                The
         instruction should be in an interactive format (e.g., an instructor-led course)
         and specifically include fabrication.
   •     Debar the Subject for 1 year.l3
   For a period of 1 year immediately following the debarment period:
   •     Require for each document (proposal, report, etc.) to which the Subject
         contributes for submission to NSF (directly or through his advisor or
         institution),


   12   Tab 2. The PI's note on the fabricated data the Subject gave him.
   13   A Group III action 45 C.F.R. 689.3(a)(3)(iii).


                                                    5
                                      Sensitive


          o   The Subject submit a contemporaneous certification that the document
              does not contain plagiarism, falsification, or fabrication.
          o   The Subject submit a contemporaneous assurance from his advisor or
              responsible official that the document does not contain plagiarism,
              falsification, or fabrication.
   •   Prohibit the Subject from servmg as a reviewer, advisor, or consultant for
       NSF.
The Subject's certifications, assurances, and proof of a RCR program completion
should be sent to the Assistant Inspector General for Investigations (AIGI) for
retention in OIG's confidential file on this matter.




                                         6
